Washington, D.C. 20530

June 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Anderson Jean v. United States of America,
S.Ct. No. 20-7958
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on April 29, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on June 25, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 26, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7958
JEAN, ANDERSON
USA

TIMOTHY CONE
TIMOTHY CONE, ESQ.
1615 NEW HAMPSHIRE AVE., NW
4TH FLOOR
WASHINGTON, DC 20009
2022624047
TIMCONE@COMCAST.NET

